 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




 MARYLAND GENERALLY COMPLIED
WITH REQUIREMENTS FOR MEDICAID
PAYMENTS MADE TO MULTI-MEDICAL
  CENTER FOR NURSING FACILITY
           SERVICES


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                   Stephen Virbitsky
                                                Regional Inspector General

                                                         May 2013
                                                       A-03-11-00151
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY
BACKGROUND
Title XIX of the Social Security Act requires the Medicaid program to provide medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Maryland, the Department of Health and
Mental Hygiene (State agency) administers the Medicaid program.
State agencies are authorized to provide nursing facility services to Medicaid beneficiaries.
Federal regulations (42 CFR part 483 subpart B) require that the nursing facilities provide
nursing services, rehabilitative services, and medically-related social services for residents under
the supervision of a physician. Further, the facility must not employ individuals who have been
found guilty by a court of law of abusing, neglecting, or mistreating residents or who have had a
finding entered into the State nurse aide registry concerning abuse, neglect, mistreatment of
residents or misappropriation of their property (42 CFR § 483.13(c)(1)(ii)).

Multi-Medical Center (Multi-Medical) is a nursing facility located in Towson, Maryland. Multi-
Medical is owned and operated by the Genesis HealthCare Corporation. For the period
October 1, 2007, through September 30, 2008, the State agency paid Multi-Medical
approximately $6.6 million for Medicaid nursing facility services.

OBJECTIVE
Our objective was to determine whether the State agency complied with Federal and State
requirements for Medicaid payments made to Multi-Medical for nursing facility services.

SUMMARY OF FINDINGS
The State agency generally complied with Federal and State requirements for Medicaid
payments made to Multi-Medical for nursing facility services. Of the 110 claims in our sample,
75 complied with Federal and State requirements. However, 35 of the claims included some
unallowable services. Services within a claim could be unallowable for one or multiple reasons.
Of the 35 noncompliant claims, 6 contained more than 1 deficiency:

   •   For 34 claims, some services were not supported by any documentation and some were
       insufficiently supported by the documentation contained in the medical record.

   •   For six claims, orders lacked a physician’s signature to authorize the services.

   •   For two claims, a service was billed that exceeded the allowable limit.

Using our sample results, we estimate that the State agency improperly claimed $37,401
($18,701 Federal share).

                                                  i
In addition, Multi-Medical had some weaknesses in facility practices. Multi-Medical did not
apply for a background check on 20 employees prior to their hire date, including 8 employees for
whom Multi-Medical had not applied for background checks at the time of our review. Also,
Multi-Medical did not properly report to the State agency three unwitnessed incidents during
which a resident received an injury caused by an unknown source. Because the State agency’s
oversight was not always adequate, it did not ensure that Multi-Medical always complied with
State and Federal requirements for facility practices.

RECOMMENDATIONS
We recommend that the State agency:

    •   refund $18,701 to the Federal Government,

    •   ensure that Multi-Medical has a completed background check performed for all
        employees and that Multi-Medical consistently follows all Federal and State
        preemployment requirements, and

    •   provide education to Multi-Medical to ensure that all unwitnessed incidents that result in
        an injury of unknown source are promptly reported.

MULTI-MEDICAL CENTER COMMENTS
In written comments to our draft report, Multi-Medical disagreed with errors reported on 8 of the
35 claims in our findings. Multi-Medical stated that the lack of a therapist’s initials is not a valid
reason to disallow a service; a discharge summary provided in lieu of progress notes was an
acceptable form of support; and physician orders that were incorrectly dated should be allowable.
Multi-Medical stated that three of the six unwitnessed incidents did not have to be reported
because the beneficiaries were able to provide details of their falls. However, Multi-Medical
agreed with our second and third recommendations and described the actions it had taken, or
planned to take, to address them.

OFFICE OF INSPECTOR GENERAL RESPONSE

We considered Multi-Medical’s comments and we maintain that the findings and
recommendations are valid. We disallowed the services in question because there was not
sufficient evidence to support that the services were provided on the dates claimed, not because
they specifically lacked a therapist’s initials. We did not accept the discharge summary in lieu of
progress notes because the discharge summary did not identify any services that may have been
provided. The incorrectly dated order had additional discrepancies that called the documentation
into question. We therefore continue to support our findings and recommendations.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments to our draft report, the State agency concurred with our first two
recommendations and partially concurred with our third recommendation. The State agency

                                                  ii
agreed with Multi-Medical that only three of the six unwitnessed incidents should have been
reported to the State agency and provided additional documentation to support its position. We
considered the State agency’s comments and additional documentation and have removed three
of the unwitnessed incidents from our findings.




                                               iii
                                                  TABLE OF CONTENTS
                                                                                                                                      Page
INTRODUCTION......................................................................................................................1
          BACKGROUND .............................................................................................................1
              Medicaid Program ................................................................................................1
              Nursing Facility Services .....................................................................................1
              Maryland Nursing Facilities Services ..................................................................1
              Multi-Medical Center...........................................................................................2
          OBJECTIVE, SCOPE AND METHODOLOGY ............................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................2
FINDINGS AND RECOMMENDATIONS ............................................................................3
         UNALLOWABLE NURSING FACILITY SERVICES ..................................................4
              Services Not Supported........................................................................................4
              Services Not Authorized ......................................................................................4
              Services in Excess of the Allowable Limit ..........................................................5
              Services Not Allowable for Federal Reimbursement ..........................................5
         WEAKNESSES IN FACILITY PRACTICES..................................................................5
              Background Checks .............................................................................................5
              Incident Reports ...................................................................................................6

         STATE AGENCY OVERSIGHT .....................................................................................6
         RECOMMENDATIONS ..................................................................................................6
         MULTI-MEDICAL CENTER COMMENTS...................................................................6
         OFFICE OF INSPECTOR GENERAL RESPONSE ........................................................7
         STATE AGENCY COMMENTS AND OFFICE OF
          INSPECTOR GENERAL RESPONSE..........................................................................7

APPENDIXES
          A: SAMPLE DESIGN AND METHODOLOGY
          B: SAMPLE RESULTS AND ESTIMATES
          C: MULTI-MEDICAL CENTER COMMENTS
          D: STATE AGENCY COMMENTS



                                                                     iv
                                       INTRODUCTION
BACKGROUND
Medicaid Program
Title XIX of the Social Security Act (the Act), requires the Medicaid program to provide medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Maryland, the Department of Health and
Mental Hygiene (State agency) administers the Medicaid program.

Nursing Facility Services
Section 1905(a)(4)(A) of the Act authorizes State Medicaid agencies to provide nursing facility
services to Medicaid beneficiaries. Participating nursing facilities must meet the requirements of
section 1919 of the Act and implementing Federal participation regulations (42 CFR part 483
subpart B), which describe the services provided and the rights of residents. Nursing facilities
must provide nursing and related services and specialized rehabilitative services to attain or
maintain the highest practicable physical, mental, and psychosocial wellbeing of each resident.
Services must be provided by qualified aides and health professionals under the supervision of a
physician. Further, the facility must not employ individuals who have been found guilty by a
court of law of abusing, neglecting, or mistreating residents or have had a finding entered into
the State nurse aide registry concerning abuse, neglect, mistreatment of residents or
misappropriation of their property (42 CFR § 483.13(c)(1)(ii)).
CMS reimburses the State Medicaid agency the Federal share of the State’s claimed costs, based
on the Federal medical assistance percentage (FMAP). The State of Maryland’s FMAP for our
audit period was 50 percent.

Maryland Nursing Facilities Services
Medicaid State plan attachment 3.1 authorizes nursing facility services for individuals 21 years
of age or older. The Code of Maryland Regulations (COMAR) implement attachment 3.1.
COMAR 10.09.10.04(A) requires the program to cover routine care and supplies, equipment,
and services when appropriate to meet the needs of the resident as described in 42 CFR Part 483,
Subpart B.
Nursing facility services are eligible for reimbursement when care is medically necessary,
adequately described in progress notes in the resident’s medical record, and signed and dated by
the individual providing care (COMAR 10.09.07.05(B)). Nursing facilities receive a set per
diem rate for basic services and may claim additional specialized services separately. For the
period October 1, 2007, through September 30, 2008, the State agency claimed $1,007,939,098
($503,991,869 Federal share) for nursing facility services.



                                                1
Multi-Medical Center
Multi-Medical Center (Multi-Medical) is a 118-bed nursing facility located in Towson,
Maryland, that provides short and long-term nursing and rehabilitative care. Multi-Medical is
owned and operated by the Genesis HealthCare Corporation, a provider of skilled nursing and
rehabilitative services. For the period October 1, 2007, through September 30, 2008, the State
agency paid Multi-Medical approximately $6.6 million for Medicaid nursing facility services.

OBJECTIVE, SCOPE, AND METHODOLOGY
Objective
Our objective was to determine whether the State agency complied with Federal and State
requirements for Medicaid payments made to Multi-Medical for nursing facility services.

Scope
We reviewed $6,607,174 ($3,303,587 Federal share) of the claims that the State agency paid
Multi-Medical from October 1, 2007, through September 30, 2008, for nursing facility services.
We did not review the State agency’s overall internal control structure because our objective did
not require us to do so. We did not review the nursing facility claims in our stratified random
sample (discussed below) to determine medical necessity. We limited our internal control
review to those controls related directly to processing and monitoring nursing facility claims.
We conducted survey work at the State agency offices in Baltimore, Maryland, in September
2010 and fieldwork at Multi-Medical in Towson, Maryland, from January through June 2011 and
at Genesis HealthCare Corporation’s Headquarters in Kennett Square, Pennsylvania, from June
2011 through May 2012.

Methodology
To accomplish our objective, we:

   •    reviewed Federal and State laws, regulations, and other requirements regarding Medicaid
        reimbursement for nursing facility services;

   •    interviewed State agency officials to gain an understanding of how they administer and
        monitor the Medicaid nursing facility program;

   •    interviewed Multi-Medical personnel to determine their procedures for obtaining
        employee background checks and for reporting incidents to the State agency;

   •    reviewed available background check documentation for all employees working at Multi-
        Medical during the fieldwork portion of our review;

   •    reviewed incident logs and incident reports compiled by Multi-Medical staff;

   •    extracted Multi-Medical’s Medicaid claims from the data provided by the State agency;

                                                2
   •   identified 748 claims for $1,000 or more that the State agency paid during our audit
       period for nursing facility services provided by Multi-Medical;

   •   selected for review a stratified random sample of 110 claims totaling $1,569,585
       ($784,792 Federal share);

   •   reviewed the supporting documentation for all services in each sampled claim to
       determine their allowability;

   •   verified for each sampled claim the number of days of service at the per diem rate for the
       approved level of care;

   •   held discussions with the utilization control agent to better understand the documentation
       requirements;

   •   provided the results of our review to officials from Genesis and Multi-Medical on
       May 29, 2012, and discussed those results with State agency officials on June 21, 2012.
Appendixes A and B contain details of our sampling and estimation methodologies.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                         FINDINGS AND RECOMMENDATIONS
The State agency generally complied with Federal and State requirements for Medicaid
payments made to Multi-Medical for nursing facility services. Of the 110 claims in our sample,
75 complied with Federal and State requirements. However, 35 of the claims included some
unallowable services. Services within a claim could be unallowable for one or multiple reasons.
Of the 35 noncompliant claims, 6 contained more than 1 deficiency:

   •   For 34 claims, some services were not supported by any documentation and some were
       insufficiently supported by the documentation contained in the medical record.

   •   For six claims, orders lacked a physician’s signature to authorize the services.

   •   For two claims, a service was billed that exceeded the allowable limit.

Using our sample results, we estimate that the State agency improperly claimed $37,401
($18,701 Federal share).

In addition, Multi-Medical had some weaknesses in facility practices. Multi-Medical did not
apply for a background check on 20 employees prior to their hire date, including 8 employees for
whom Multi-Medical had not applied for background checks at the time of our review. Also,

                                                3
Multi-Medical did not properly report to the State agency three unwitnessed incidents during
which a resident received an injury caused by an unknown source. Because the State agency’s
oversight was not always adequate, it did not ensure that Multi-Medical always complied with
State and Federal requirements for facility practices.

UNALLOWABLE NURSING FACILITY SERVICES
Of the 110 claims in our sample, 35 included unallowable services: 34 claims included services
that were either not supported by any documentation or were not sufficiently supported, 6 claims
included services for which there was no physician’s signature to authorize the order, and 2
claims included a service that exceeded the allowable limit. Six claims contained more than one
deficiency.

Services Not Supported
Section 1902(a)(27) of the Act requires the State plan to provide for agreements with providers
to keep records necessary to fully disclose the extent of the services provided to Medicaid
beneficiaries and to agree to furnish the State agency with such information when requested.
The State agency requires that nursing facilities must maintain records for all patients in
accordance with accepted professional standards and practices. Patient records must include:
1) documented evidence of assessment of the needs of the patient, of establishment of an
appropriate plan of initial and ongoing treatment [plan of care], and of the care and services
provided; 2) diagnostic and therapeutic orders; and 3) observations and progress notes (COMAR
10.07.02.20).

For 34 of the 110 sampled claims, the State agency paid Multi-Medical for some nursing facility
services for which there was insufficient supporting documentation.
For 31 of these claims, the medical records maintained by Multi-Medical did not sufficiently
support the claimed services. For example, for 1 claim, Multi-Medical claimed 26 units of
turning and positioning service. However, the documentation supported only 22 units. We
found similar errors on 30 other claims.
For the remaining three claims, the medical records did not support that Multi-Medical had
provided any of the claimed services. For example, the State agency paid Multi-Medical for 11
billed units of speech therapy; however, Multi-Medical did not produce documentation to
support that any speech therapy had been provided. Similar errors were found on two other
claims.

Services Not Authorized

Nursing facility services are eligible for reimbursement under Medicaid only when the services
are provided under the supervision of a physician (42 CFR § 483.40). Further, 42 CFR
§ 483.40(b) states that the physician must: (1) review the resident's total program of care,
including medications and treatments, at each visit; (2) write, sign, and date progress notes at
each visit; and (3) sign and date all orders with the exception of certain vaccines, which may be


                                                4
administered according to physician-approved facility policy after an assessment for
contraindications.

For 6 of the 110 sampled claims, the State agency paid Multi-Medical for nursing facility
services for which the order lacked a physician’s signature.

Services in Excess of the Allowable Limit
The State agency reimburses providers for physical therapy services, performed by or under
supervision of a licensed physical therapist, that are directly related to the physician’s written
plan of care that specifies the frequency and duration of treatment (COMAR 10.09.07.05).
COMAR 10.09.10.09-1 provides for reimbursement of physical, occupational, and speech
therapy services in 15-minute increments, with a maximum duration of 1 hour per day.
For 2 of the 110 sampled claims, the State agency paid Multi-Medical for nursing facility
services that exceeded the allowable limit. For example, for one claim, the State agency paid
Multi-Medical for five units of physical therapy billed for 1 day of service; however, only four
units were allowable. We found a similar error on one other claim.

Services Not Allowable for Federal Reimbursement
Using the results of our sample, we estimate that the State agency improperly claimed $37,401
($18,701 Federal Share) for nursing facility services provided by Multi-Medical that did not
comply with Federal and State requirements.

WEAKNESSES IN FACILITY PRACTICES
For 20 individuals, Multi-Medical did not apply for background checks prior to their hire dates.
Also, Multi-Medical did not properly report to the State agency three incidents of resident injury
by an unknown source.

Background Checks
Federal regulations prohibit nursing facilities from employing individuals who have been “(A)
[f]ound guilty of abusing, neglecting, or mistreating residents by a court of law; or (B) [h]ave
had a finding entered into the State nurse aide registry concerning abuse, neglect, mistreatment
of residents or misappropriation of their property…” (42 CFR § 483.13(c)(1)(ii)).

Section 19-1902(a) of the Annotated Code of Maryland states that before an eligible employee
may begin work for an adult dependent care program, the program must apply for a State
criminal history records check or request a private agency to conduct a background check and
request a reference from the potential employee's most recent employer.
Multi-Medical did not apply for a background check prior to hiring 20 employees, including:

   •   12 employees for whom Multi-Medical applied for background checks after their hire
       date and



                                                  5
   •    8 employees for whom Multi-Medical had not applied for background checks at the time
        of our review.

For example, a nurse’s aide was hired in 2000, but Multi-Medical did not apply for a background
check until 2011. A respiratory therapist began working at Multi-Medical in 2001, but Multi-
Medical did not apply for a background check until 2005. By not ensuring that all employees
met the Federal and State pre-employment requirements for background checks, Multi-Medical
potentially jeopardized the safety of the adults in its care.

Incident Reports
Federal regulations require that nursing facilities ensure that “all alleged violations involving
mistreatment, neglect, or abuse, including injuries of unknown source, and appropriation of
resident property are reported immediately to the administrator of the facility and to other
officials (including to the State survey and certification agency) in accordance with State law
through established procedures (42 CFR § 483.13(c)(2)).

Multi-Medical did not properly report to the State agency three unwitnessed incidents of a
resident injury by an unknown source. By not reporting the incidents, Multi-Medical potentially
jeopardized the safety of the adults in its care. Also, because CMS posts this information on its
Nursing Home Compare website, prospective residents were not provided with complete
information to help them find and compare nursing homes and make informed decisions about
nursing home care.

STATE AGENCY OVERSIGHT

Because its oversight was not always adequate, the State agency paid some unallowable claims
and did not ensure that Multi-Medical always complied with State and Federal requirements for
conducting background checks and reporting incidents of resident injuries.

RECOMMENDATIONS
We recommend that the State agency:

    •   refund $18,701 to the Federal Government,

    •   ensure that Multi-Medical has a completed background check performed for all
        employees and that Multi-Medical consistently follows all Federal and State
        preemployment requirements, and

    •   provide education to Multi-Medical to ensure that all unwitnessed incidents that result in
        an injury of unknown source are promptly reported.

MULTI-MEDICAL CENTER COMMENTS
In written comments to our draft report, Multi-Medical disagreed with errors reported on 8 of the
35 claims in our findings. Multi-Medical stated that the lack of a therapist’s initials is not a valid
reason to disallow a service; a discharge summary provided in lieu of progress notes was an
                                                  6
acceptable form of support; and physician orders that were incorrectly dated should be allowable.
Multi-Medical also stated that three of the six unwitnessed incidents did not have to be reported
because the beneficiaries were able to provide details of their falls. However, Multi-Medical
agreed with our second and third recommendations and described the action it had taken, or
planned to take, to address them.

Multi-Medical’s comments are included as Appendix C to this report. The attachment to Multi-
Medical’s comments was not included because it contained personally identifiable information.

OFFICE OF INSPECTOR GENERAL RESPONSE

We considered Multi-Medical’s comments and we maintain that the findings and
recommendations are valid. We disallowed the services in question because there was not
sufficient evidence to support that the services were provided on the dates claimed, not because
they specifically lacked a therapist’s initials. We did not accept the discharge summary in lieu of
progress notes because the discharge summary did not identify any services that may have been
provided. The incorrectly dated order had additional discrepancies that called the documentation
into question. We therefore continue to support our findings and recommendations.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments to our draft report, the State agency concurred with our first two
recommendations and partially concurred with our third recommendation. The State agency
agreed with Multi-Medical that only three of the six unwitnessed incidents should have been
reported to the State agency and provided additional documentation to support its position. We
considered the State agency’s comments and additional documentation and have removed three
of the unwitnessed incidents from our findings.

The State agency’s comments are included as Appendix D to this report.




                                                 7
APPENDIXES
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY
POPULATION
The population consisted of Medicaid claims that the State agency paid during the period
October 1, 2007, through September 30, 2008, for nursing facility services provided by Multi-
Medical Center.

SAMPLING FRAME
The sample frame consisted of 748 Medicaid claims totaling $6,607,174 ($3,303,587 Federal
Share). We identified and removed 19 claims from the population that were less than $1,000.

SAMPLE UNIT
The sample unit was a claim. A claim included all services provided to a resident for one month.
All services in the claim were reviewed.

SAMPLE DESIGN
We used a stratified random sample containing three strata as follows:

                                                                             Total Medicaid
   Stratum                   Range                 Number of Claims          Reimbursement
      1                $1,000.00-$9,999.99              633                      $4,467,859
      2              $10,000.00-$23,699.99              105                        1,888,555
      3               $23,700.00 and above               10                          250,760
                              Total                     748                      $6,607,174


SAMPLE SIZE
We selected a sample of 40 claims from stratum 1, 60 claims from stratum 2, and 10 claims from
stratum 3, resulting in a total sample of 110 claims.

SOURCE OF RANDOM NUMBERS
We used the Office of Inspector General, Office of Audit Services (OAS), statistical software to
generate the random numbers.

METHOD OF SELECTING SAMPLE ITEMS
We consecutively numbered the sample units in stratum 1 and stratum 2. After generating 40
random numbers for stratum 1 and 60 random numbers for stratum 2, we selected the
corresponding frame items. We chose all 10 sample items in stratum 3.

ESTIMATION METHODOLOGY
We used the OAS statistical software to estimate the total amount and Federal share of the
overpayments.
                 APPENDIX B: SAMPLE RESULTS AND ESTIMATES


                               Sample Results: Total Amounts



             Frame       Value of      Sample      Value of     No. of      Value of
Stratum       Size        Frame         Size       Sample    Overpayments Overpayments
   1          633       $4,467,859        40        $272,458       9             $1,709
   2          105        1,888,555        60       1,046,367      20             27,136
   3           10          250,760        10         250,760       6              3,595
 Total        748       $6,607,174       110      $1,569,585      35            $32,440




                               Estimated Value of Overpayments
                     (Limits calculated for a 90-percent confidence interval)

                                       Total Amounts                 Federal Share

          Point Estimate                  $78,128                       $39,064

          Lower limit                     $37,401                       $18,701

          Upper limit                    $118,855                       $59,428
                                                                                                                                                     Page 1 of 6
          APPENDIX C: MULTI-MEDICAL CENTER COMMENTS

                                                                           :fi: Multi-Medical Center
                                                                               ... •         Genesis HealthCare"'

 December 5, 2012

Stephen Virbitsky
Office of Audit Services, Region Ill
Office of Inspector General                                                                                     7700 York Road
                                                                                                                Towson, MD 21204
Public Ledger Building, Suite 316                                                                               Tel 410 821 5500
150 South Independence Mall West                                                                                Fax 410 512 3520
Philadelphia, PA 19106                                                                                          'IDD 800 735-2258


        Re: Report Number A-03-11-00151

Dear Mr. Virbitsky:

 Multi-Medical Center would like to thank you for the opportunity to comment on the Office of Inspector
 General (OIG) Audit Report dated October 18, 2012 ("Draft Report''). Multi-Medical Center agrees in
 part and disagrees in part with the audit findings. As you requested, this letter provides a statement
 descriqing the nature of the corrective action taken or planned for those findings with which we concur.
 Similarly, we provide a statement of the specific reasons for those findings with which we do not concur
·and a statement of any alternative corrective action taken or planned. This letter is timely filed by
 December 5, 2012 which is within the period of 30 days from the date of the Draft Report and the
 request for extensio.n granted by Mr. Leonard D. Picari.

The. Draft Report included 35 claims with deficiencies. Four of those claims contained deficiencies in
more than one category. This resulted in the following number of claims with deficiencies by category

               .;~~*~g9~il;~~:i:l;;~\~m\:~~'.l:;)}~~;::t~!i&~~1~!.ii~~;;;;;i:jt~iW~t~t~~~::j;'iNf.j,f;:tlili!i;'i~~ i·N'i;i!J)'!~~fJ9riPt~1~~E\'/:
                Services Not Supported                                                                        31
                Services Not Authorized                                                                       6
                Services in Excess of Allowable Limit                                                         2



I.      31 Claims, Some Services Insufficiently Supported By Documentation.

Multi-Medical Center concurs that 25 of the claims identified by the OIG did not sufficiently support
billing of Nursing Facility Services. Many of the claims noted with unsupported services contained billing
inaccuracies that appeared to be unintention.al and. relative to human error due to manual calculation.
For six claims (131 .units), we respectfully disagree with the findings since criteria and documentation
required for reimbursement is present in the medical record and supports the services billed. Of these
six claims, two contained more than one deficiency.

        A.       The Maryland Medical Assistance Program: Nursing FacilitY Assessment and
Reimbursement Handbook (Handbook) outlines the criteria and key documentation that is required for
reimbursement. In order to bill for therapy services, the following documentation is required (a)
physician order; (b) therapy evaluation; (c) treatment plan; (d) daily service record; (e) weekly progress
notes. In addition, the Handbook provides an example of a daily service record in the Appendix section
of the Handbook. We believe that our document contained in the medical records commonly known as.
                                                                                                     Page 2 of 6
Mr. Stephen Virbitsky
December 5, 2012
Page 2 of 6



the Service Log Matrix conforms to the aforementioned document and satisfies reimbursement
guidelines. Please see the information below related to specific disallowances.

        1.     Insufficient Documentation Relevant to Therapist lnitlols

       For five claims, all key documentation was located and provided as outlined in the Handbook to
       SC1tisfy reimbursement requirements. According to the Handbook, a daily service record must
       include date of treatment, treatment modality, minutes for each modality, and total treatment
       minutes. While the therapists for the selected claims in your sample provided additional
       documentation (therapist initialed the service log matrix and progress note), initialing the notes
       is not required and lack of a therapist's initials is not a valid reason to disallow service. In the
       instances in which the audit disallowed these services, sufficient documentation was provided
       on the service log matrix pursuant to the Handbook and our internal procedures.

       Based upon the information presented above for the five claims, we request reconsideration of
       services billed on the following claims:




       2.      lnsu/fident or No Documentation Relevant to Weekly Progress Notes

       Per the Handbook, progress notes for therapy services must include an initial assessment note,
       an update status, and discharge instructions on a weekly basis. For two claims, all key
       documentation was located and provided to satisfy those reimbursement requirements.

      We noted for one deficiency, 11 units were disallowed sinc.e no documentation was provided.
      The medical record revealed that the start -o f care for therapy services began on 9/4/2008 and
      ended on 9/10/2008. A discharge summary was completed in lieu of a progress note since
      services ended on the aforementioned date. Since the discharge summary has the same
      elements of a progress note, the discharge summary clearly documented the initial assessment,
      update status, and discharge instructions to satisfy the documentation requirements for
      reimbursement purposes.

      Deficiencies were noted relevant to missing minutes on weekly progress notes. According to the
      aforementioned documentation requirements for weekly progress notes, inclusion of minutes
      on the note is not a requirement for reimbursement purposes. The minutes in question are
      documented on the service log matrix as previously discussed.
                                                                                                  Page 3 of 6
Mr. Stephen Virbitsky
December 5, 2012
Page 3 of6



        Lastly, units were disallowed since no progress note was available in the medical record.
        Specifically, the medical record revealed that a progress note was written on 9/18/2008 and
        services ended on 9/22/2012. As outlined in the Handbook, progress notes must be completed
        at least weekly. Since the time period between the last progress note and discharge summary is
        less than seven days, an additional progress note was not required for reimbursement purposes.

        Based upon the information presented above for the two claims, we request reconsideration of
        services billed on the following claims:




                * In the 0/G Draft Report, claim was noted with more than one deficiency.

        3.      Insufficient Documentation Relevant to Therapy Certification

        A.       According to the Handbook, therapy evaluations are required for reimbursement
purposes. The evaluation must include the reason for referral, onset date of the problem, prior and
current level of functioning, and assessment summary. In addition, the evaluation identifies modalities,
frequency of services, and goals and is typically updated every 30 days or sooner, if required, by the
therapist and signed by the attending physician or physician extender.

        We concur that one recertification was not signed by the physician. Since the Handbook does
        not provide any guidance on unsigned certifications, we referenced the following CMS manual-
        Medicare Benefit Policy Manual Chapter 15: ~overed Medical and Other Health Services. In
        Section 220.1.3 D, the manual outlines the procedure for handling delayed certifications. Since a
        physician order was signed by the physician, the medical record clearly documents the need for
        care and that the patient was under the care of a physician in which a delayed certification
        would be appropriate. For one claim, we obtained a delayed certification for the services in
        question since requirements for a delayed certification were satisfied (see Attachment A).

        Based upon the information presented above for one claim, we request reconsideration of
        services billed on the following claim:




         B.      Corrective Action.     As a result of the services Insufficiently supported by
documentation, Multi-Medical Center's corrective action will include continuing education to all staff to
document and maintain all necessary entries in the record as required to bill Medicaid for Nursing
Facility Services as outlined in the Handbook. For each service, Multi-Medical Center strives to ensure
                                                                                                   Page 4 of 6
Mr. Stephen Virbitsky
December 5, 2012
Page 4 of 6



that the beneficiary's medical record includes: (a) physician orders for services if applicable; (b)
documented evidence of assessment of patient's needs, establishment of an appropriate and ongoing
treatment plan or plan of care, and documentation of care and services provided; (c) observations and
progress notes.

II.     Six Claims Orders Lacked a Physician's Signature to Authorize Services

Multi-Medical Center strives to obtain the prescriber's signature on all telephone and monthly
recapitulations of computerized pharmacy orders (monthly orders} in accordance with State and Federal
Regulations. For four claims, we concur that telephone or monthly orders lacked a prescriber's
signature. We believe that this failure to obtain this signature was due to human error.

         A.       The medical necessity of the essential services provided of enteral nutrition therapy and
ventilator care were provided under the supervision of a physician which is clearly evident in other
sections of the medical record. For one enteral nutrition therapy claim and one ventilator care claim (27
units in total), we respectfully disagree with the findings since criteria and documentation required for
reimbursement is present in the medical record and supports the services billed discussed below.


        1.      Service$ Not Authorized: Enteral Nutrition Therapy

       For claim S2-22, a tube feeding order was signed by the Certified Registered Nurse Practitioner
       (CRNP) on 7/24/2008 which contains the rate of administration under the Tube Feeding
       Method/Frequency section on the form (40 ml per hour; hours per day= 20). It appears that the
       CRNP may have incorrectly dated the form 7/24/2008 versus 7/25/2008 since the nightly chart
       check for orders within last 24 hours revealed a Licensed Practical Nurse's signature on
       7/26/2008 at 0200 hrs.

       Based upon the information presented above for one enteral nutrition therapy claim, we
       request reconsideration of services billed on the following claim:




       2.      Services Not Authorized: Ventilator Care

       According to the Handbook, services for ventilator care can be billed for any part of the day in
       which a patient receives artificial ventilation of the lungs by mechanical means through a
       ventilator. The key documentation required for reimbursement purposes includes the following:
       (a) physician order; (b) flow sheet or treatment/medication sheets; (c) other supporting
       documentation as necessary.

       For one claim (S2-48), we concur that the physician did not sign the monthly order; however, a
       revision to the original order was noted and signed by the physician on 3/3/08. Specifically, the
                                                                                                  Page 5 of 6
Mr. Stephen Virbitsky
December 5, 2012
Page 5 of6



        physician ordered pressure support ventilation (PSV) with settings for up to two hours as
        tolerated. While this order was later discontinued since the patient was unable to tolerate the
        ventilator weaning process per the physician, we believe that reconsideration of the services
        provided under this order should be allowable since the criteria and key documentation were
        properly documented to satisfy reimbursement guidelines.

        Based upon the information presented, we request reconsideration of services billed on the
        following claims:




        B.      Corrective Action. As a result of the services insufficiently supported by lack of
physician orders, Multi-Medical Center's corrective action will include continuing education to all staff to
ensure orders are signed in accordance with regulatory requirements


Ill.    Services in Excess of the Allowable Limit

Multi-Medical strives to provide an accurate and comprehensive record of all services provided.         We
concur with the audit findings which appear to be isolated and a result of human error.



IV.     Weaknesses in Facility Practices

        1.      Background Checks

        Multi-Medical Center strives to obtain the required criminal background checks for all
        employees before they commence employment. Of the eight employees for whom a
        background check had not been completed as of the review five have since terminated
        employment. Background checks for the remaining three have been completed and meet
        published hiring criteria.

        Of the 12 employees for whom a background check was completed late, the examples cited by
        the OIG are accurate. However, those examples are outliers. Background checks for five of the
        12 exceptions were obtained within 65 days of the hire date. Also, despite being late, all of the
        background checks met our hiring criteria, meaning that our patients were not in harms way.

Corrective Action. Multi-Medical Center has strengthened our background check process in the last
several years. The results of this strengthening are evident when learning that the hire date for 17 of
the 20 exceptions was prior to 2009.
                                                                                                   Page 6 of 6
Mr. Stephen Virbitsky
December 5, 2012
Page 6of6




        2.      Incident Reports

        Of the six incident reports mentioned in the Draft Report, we concur with three of the findings.
        For the remaining three incidents, we respectfully disagree with the findings since incidents
        were of known source. Specifically, incident reports dated November 11, 2007 and August 25,
        2008, both alert and oriented patients were able to provide specific details of their falls. On
        another report dated January 25, 2008, the description of the incident was very specific to the
        cause of the fall. Since the three incident reports indicate the source of the injury, we believe
        that these Incidents were not required to be reported as outlined in a memorandum to
        Administrators from the Director, Office of Health Care Quality on April12, 2005.




Corrective Action. As a result of incident reports not reported, Multi-Medical Center's corrective action
will include continuing education to key staff members to ensure incident reports are appropriately filed
with the appropriate regulatory authorities.


V.      Conclusion

As discussed in the detail above, Multi-Medical Center acknowledges that some, but not all, of the
claims identified by the OIG failed to comply with the applicable State and Federal laws and policies
governing the provision of long term care services to Medicaid beneficiaries. While Multi-Medical
Center believes that these claims are anomalous and not representative of Multi-Medical Center's
general compliance efforts, Multi-Medical Center has taken measures to reassess its compliance
strategy to ensure that all long term care services are provided in accordance with such laws and
policies.

Please feel free to contact me with any questions or comments.

With best regards.

                                                        Sincerely,

                                                        ~                     ,v;ll/l
                                                        Bernard Rochowiak
                                                        Administrator
                           APPENDIX D: STATE AGENCY COMMENTS




             STATE OF MARYlAND
                                                                                   Office of Health Services

             D~H_MH                                                                Medical Care Programs



             Mat)'land Department of Health and Mental Hygiene
             20 l W. Preston Street • Baltimore, Maryland 21201
             ll.·lartin   ()'Malle~.   Governor- Anthony G. Brown. Lt. Governor-· Joshua M. Shartstdn.   Sccrdar~


                                                        April 24, 2013


Mr. Stephen Virbitsky
Regional Inspector General for Audit Services
Department of Health and Human Services
Office of Inspector General
Office of Audit Services, Region Ill
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, PA 19106

RE:    Maryland Generally Complied With Requirements for Medicaid Payments Made to
       Multi-Medical Center For Nursing Facility Services (draft)
       Report A-03~11-00151

Dear Mr. Virbitsky:

       Thank you for the opportunity to review the above-referenced report. The Maryland
Department of Health and Mental Hygiene (Department) appreciates your conclusion that
Maryland has generally complied with Federal and State requirements. We also appreciate
your recommendations for improving our level of compliance.

         We have carefully reviewed each recommendation outlined in the report. We would
like to note that two of the recommendations fall under the purview of the Department's
Office of Health Care Quality (OHCQ), which is separate from the Office of Health Services
(OHS). We have shared this report with that Office and are sharing their comments.

1. Refund $18,701 to the Federal Government. The Department concurs with this finding.
   In terms of corrective action, the Department contracts with a Utilization Control Agent
   (UCA) to conduct onsite postpayment reviews of claimed services to ensure that service
   is provided and documented in accordance with Federal and State regulations and
   policies. The UCA that was responsible for reviews at the time for which the audit was
   conducted is no longer our contractor. The Department will continue to educate and
   monitor the current contractor on those requirements addressed in the report.

2. Ensure that Multi Medical has a completed background check performed for all
   employees and that Multi Medical consistently follows all Federal and State
   preemployment requirements. OHCQ has reviewed this recommendation and noted that
   recent surveys have not triggered surveyors to review facility practices regarding
   background checks. Nevertheless, OHCQ will assign a surveyor to investigate current
   practices to ensure compliance with requirements.


                Toll Free l-&77-4MD-DHiVIII • TTY lilr Disabkd- rvlal) land Rei a: Service 1-Snn-735-2258
                                           1Feh Sile:   \VW\\   .dhmh. rnarYiand .!!O..Y.
                                                                                                               Page 2 of 2

        Mr. Stephen Virbitsky
        April 24, 2013
        Page2


        3. Provide education to Multi Medical to ensure that all unwitnessed incidents that result in
           an injury of unknown source are promptly reported. We were not provided with resident-
           specific details regarding the incidents on which this recommendation is based .
           However, OHCQ notes its support of Multi Medical's disagreement with the findings in
           three incidents. The facility noted that in two cases, the residents were alert and oriented
           and were able to provide specific details of their falls. In the third case, the facility noted
           that the description of the incident was very specific as to the cause of the fall.

              In a memorandum dated December 16, 2004, the Centers for Medicare and Medicaid
              Services defines an "injury of unknown source" as an injury in which "both of the following
              conditions are met:

                 •   The source of the injury was not observed by any person or the source of the
                     injury could not be explained by the resident; and
                 •   The injury is suspicious because of the extent of the injury or the location of the
                     injury ... or the number of injuries observed at one particular point in time or the
                     incidence of injuries over time." 1

                Regarding the three incidents with which the facility concurred, the Department also
        concurs. In a subsequent complaint investigation conducted in November 2011 , OHCQ cited
        the facility for failure to report an injury of unknown origin. The most recent QIS survey
        (August 2012) did not reveal any deficiencies related to failure to report such injuries. The
        Department continues to educate the providers on the reporting of unknown injuries through
        its survey review process.

              Again, thank you for the opportunity to review and comment on your findings. If you
        have any questions regarding this response, please do not hesitate to contact either:

        Jane Sacco, Division Chief for Long Term Care Services, OHS, at (410) 767-6771 or
        jane.sacco@marvland.gov, or

        Margie Heald, Deputy Director for Federal Programs, OHCQ at (41 0) 402-8101 or
        Margie. Heald@marvland.gov

                                                         Sincerely,

                                                          ~f)~~
                                                         Susan. J. Tucker, Executive Director
                                                         Office of Health Services

        cc:      Leonard Piccari
                 Joseph Girardi
                 Mark Leeds
                 Susan Panek
                 Jane Sacco
                 Patricia Nay, M.D.
                 Margie Heald, R.N.
                 Thomas Russell
1
 CMS Memorandum (Ref: S&C-05-09) of December 16, 2004 to State Survey Agency Directors. Please note that the
bold and underlined text are derived directly from this document.
